U.S. Department of Labor

                            Office of Inspector General—Office of Audit





                                                                           PROCEDURES FOR ACCOUNTING AND
                                                                           REPORTING FINANCIAL ACTIVITY UNDER
                                                                           THE AMERICAN RECOVERY AND
                                                                           REINVESTMENT ACT OF 2009




                                                                                          Date Issued:    August 28, 2009 

                                                                                          Report Number: 18-09-001-13-001
U.S. Department of Labor                                  August 2009
Office of Inspector General
Office of Audit

                                                          PROCEDURES FOR ACCOUNTING AND
BRIEFLY…                                                  REPORTING FINANCIAL ACTIVITY UNDER THE
Highlights of Report Number: 18-09-001-13-001, to         AMERICAN RECOVERY AND REINVESTMENT
the Senior Accountable Official for the American          ACT OF 2009
Recovery and Reinvestment Act of 2009.

WHY READ THE REPORT                                       WHAT OIG FOUND
The Recovery Act requires federal agencies to             OIG found that, generally, the Department has
implement an unprecedented level of transparency          implemented procedures to (1) account for
and accountability to ensure U.S. citizens can see        Recovery Act financial activity as required by
where and how their tax dollars are being spent.          Federal law and OMB guidance and (2) report on
                                                          the use of Recovery Act funds in accordance with
The Department of Labor received more than $40            OMB guidance.
billion under the Recovery Act to expand
unemployment benefits, increase employment and            OIG communicated to the Department the
training opportunities, build and rehabilitate Job        importance of accurate financial reporting on
Corps Centers, enforce worker protection laws, and        Recovery Act funds. OIG also emphasized the
coordinate activities related to the infrastructure and   importance of establishing and issuing procedures
unemployment insurance investments. Both the              for recipient reporting on a timely basis.
Recovery Act and OMB guidance contain
provisions requiring Federal agencies to account          The Department agreed with OIG’s assessment of
separately for ARRA funds. The Department has             the need to ensure adequate controls over the
also issued instructions to its agencies on how to        accounting and reporting of Recovery Act funds.
account for and report on ARRA-related obligations        The Office of the Chief Financial Officer has already
and expenditures.                                         implemented additional financial controls. In
                                                          addition, the Department has recently issued
WHY OIG CONDUCTED THE AUDIT                               guidance on recipient reporting.
The audit objectives were to answer the following
questions:                                                The Department stated it will remain vigilant in all
                                                          aspects of financial management, and will ensure
  1. 	 Has the Department implemented, or does it         the concerns identified by OIG regarding financial
       have plans to implement, procedures to             reporting and recipient reporting systems are
       account for Recovery Act financial activity as     appropriately considered and addressed.
       required by Federal law and Office of Budget
       and Management (OMB) guidance?

  2. 	 Does the Department have processes to
       report on the use of Recovery Act funds in
       accordance with OMB guidance?

READ THE FULL REPORT
To view the report, including the scope,
methodology, and full agency response, go to:
http://www.oig.dol.gov/public/reports/oa/2009/18-
09-001-13-001.pdf.
          U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                  Recovery Act Financial Reporting
                                     Report No. 18-09-001-13-001
                                                      U. S. Department of Labor – Office of Inspector General



Table of Contents 

Assistant Inspector General’s Report ......................................................................... 1


Results In Brief .............................................................................................................. 2


Objective 1 — Has the Department implemented, or does it have plans to 

implement, procedures to account for Recovery Act financial activity as required 

by Federal law and OMB guidance? ........................................................................... 3


Objective 2 — Does the Department have processes to report on the use of 

Recovery Act funds in accordance with OMB guidance? ........................................ 5


Exhibits 


         Exhibit 1 – Recovery Act Funds by Program ...................................................... 11 


         Exhibit 2 – Actual and Planned Obligations by Program .................................... 13 


Appendices

         Appendix A – Background ................................................................................. 17


         Appendix B – Objectives, Scope, Methodology and Criteria ............................. 19


         Appendix C – Acronyms and Abbreviations ....................................................... 21


         Appendix D – Department’s Response to Draft Report ...................................... 23





                                                                                        Recovery Act Financial Reporting
                                                                                           Report No. 18-09-001-13-001
        U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                Recovery Act Financial Reporting
                                   Report No. 18-09-001-13-001
                                     U. S. Department of Labor – Office of Inspector General


U.S. Department of Labor                 Office of Inspector General
                                         Washington, D.C. 20210




August 28, 2009

                        Assistant Inspector General’s Report


Edward C. Hugler
Senior Accountable Official
  for the American Recovery and Reinvestment Act of 2009
U.S. Department of Labor
200 Constitution Avenue, N.W
Washington, D.C. 20210

The American Recovery and Reinvestment Act (Recovery Act) was signed into law on
February 17, 2009. The Recovery Act provided the U.S. Department of Labor
(Department) with $44.9 billion, primarily to expand unemployment benefits, increase
employment and training opportunities, enforce worker protection laws, and construct,
rehabilitate, acquire, and operate Job Corps Centers. Approximately 90 percent ($39.9
billion) of the Department’s Recovery Act funds was designated for Unemployment
Insurance (UI) programs. These monies will be used over time as states pay
unemployment benefits. The Department has awarded approximately $3.4 billion in
formula grants to states for employment and training activities, and plans to use the
remaining $1.6 billion by March 2010 for discretionary grants, Job Corps programs, and
administrative activities.

The Recovery Act requires Federal agencies to implement an unprecedented level of
transparency and accountability to ensure the public can see where and how its tax
dollars are being spent. The Act also specifies that funds be awarded and distributed in
a prompt, fair, and reasonable manner.

The objectives of this audit were to answer the following questions:

      1. Has the Department implemented, or does it have plans to implement,
         procedures to account for Recovery Act financial activity as required by
         Federal law and OMB (Office of Management and Budget) guidance?

      2. Does the Department have processes to report on the use of Recovery Act
         funds in accordance with OMB guidance?

To achieve our objectives, we reviewed OMB guidance to Federal agencies related to
accounting for and reporting on Recovery Act funds. We interviewed agency officials to
obtain a general understanding of the Department’s accounting and reporting
processes. We also reviewed guidance that the Department issued to its agency heads
regarding the Recovery Act, agencies’ internal Recovery Act policies and

                                                                       Recovery Act Financial Reporting
                                             1                            Report No. 18-09-001-13-001
                                      U. S. Department of Labor – Office of Inspector General


procedures, and guidance the agencies issued to states and other recipients of the
Department’s Recovery Act funds. We did not test the effectiveness of internal controls
because it was not relevant to our audit objectives.

We conducted this audit in accordance with generally accepted government auditing
standards for performance audits. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on the audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on the
audit objective. Our objectives, scope, methodology, and criteria are detailed in
Appendix B.

RESULTS IN BRIEF

The Department has developed new accounting codes to enable it to separately
account for Recovery Act funds within its existing general ledger system. The
Department has modified its existing timekeeping system to capture staff time spent on
Recovery Act functions. This modification was originally scheduled to be completed by
June 30, 2009, but completion was delayed until August 10, 2009. In the interim, the
Department issued guidance requiring its program agencies to manually track and
report Recovery Act time charges. The Department is currently utilizing the new
timekeeping system to separately track ARRA hours.

OMB established new reporting requirements for Federal agencies and other recipients
of Recovery Act funds. On a weekly basis, Federal agencies must provide financial data
to the Recovery.gov website on funds made available and expended. Agencies were
required to start submitting these reports beginning March 3, 2009, with reporting on
expenditures optional until April 6, 2009. The Department has implemented procedures
to prepare the reports required by OMB, and has met all reporting deadlines. However,
the Department recently restated outlays by $8.9 billion on its Weekly Financial and
Activity Report. The restatement underscores the importance for accurate Recovery Act
funds reporting.

The Recovery Act also establishes reporting requirements for entities that receive
Recovery Act funds from the Department. Each calendar quarter, recipients of Recovery
Act funds must submit a report to the Department that contains the total amount of
recovery funds received from the Department, the total amount of recovery funds
received that were expended or obligated for projects or activities, a detailed list of all
projects or activities for which recovery funds were expended or obligated, and detailed
information on any subcontracts or subgrants awarded by the recipients. The first such
report is due on October 10, 2009, for the quarter ending September 30, 2009.

The Department has not yet provided policy guidance or instituted procedures to ensure
that recipients accurately report the receipt and usage of Recovery Act funds. While
OMB’s guidance on recipient reporting has only recently been issued, and the first
report is not due until October 2009, timely establishment of procedures and issuance of


                                                              Recovery Act Financial Reporting
                                             2                   Report No. 18-09-001-13-001
                                      U. S. Department of Labor – Office of Inspector General


needed guidance is critical as a part of the Department’s on-going efforts to fully
implement the Act.

The Senior Accountable Official for the American Recovery and Reinvestment Act of
2009 (SRO) agreed with OIG’s assessment of the need to ensure adequate controls are
established for the accounting and reporting of Recovery Act funds. He further stated
that OIG’s concerns about financial and recipient reporting will be appropriately
considered and addressed.

The Department’s response is included in its entirety as Appendix D.

RESULTS

Objective 1 — Has the Department implemented, or does it have plans to
              implement, procedures to account for Recovery Act financial
              activity as required by Federal law and OMB guidance?

The Department has taken necessary steps to account for the $44.9 billion received in
Recovery Act funds. New accounting codes have been developed to separately account
for Recovery Act funds within the Department’s existing general ledger system. The
Department modified its existing timekeeping system to capture staff time spent on
Recovery Act functions. This modification was originally scheduled to be completed by
June 30, 2009, but completion was delayed until August 10, 2009. In the interim, the
Department issued guidance requiring its agencies to manually track and report
Recovery Act time charges.

Recovery Act Funding

The Department received Recovery Act funds totaling $44.9 billion. Approximately
90 percent of these monies ($39.9 billion) was provided for the Unemployment
Insurance (UI) program. The $39.9 billion was designated to pay for extending the
emergency extended unemployment compensation program, a $25 increase in the
weekly benefit amount, incentive payments to states for modernization of state UI laws,
and a special transfer for state administration of UI programs. The Department also
received approximately $4 billion for training and employment service programs under
the Workforce Investment Act. Finally, the Recovery Act provided $1 billion for State
Unemployment Insurance and Employment Service Operations, Community Service
Employment for Older Americans grants, National Emergency Grants for Health
Insurance Coverage, Job Corps, and Departmental salaries and expenses.

Table 1 summarizes Recovery Act funding by program administered by the Department.
(See Exhibit 1 for further detail)




                                                              Recovery Act Financial Reporting
                                             3                   Report No. 18-09-001-13-001
                                              U. S. Department of Labor – Office of Inspector General


Table 1: Department of Labor Recovery Act Funding
                                                                                 Amount
Program1                                                                      (millions of $)       Percent
Unemployment Insurance                                                                $39,900           88.96
Training and Employment Services                                                          3,950          8.81
State Unemployment Insurance and Employment Service
Operations                                                                                  400          0.89
Community Service Employment for Older Americans                                            120          0.27
National Emergency Grants for Health Insurance Coverage                                     150          0.33
Job Corps                                                                                   250          0.56
Departmental Management: Salaries and Expenses                                                80         0.18
Total                                                                                 $44,850         100.00

Accounting for Recovery Act Funds

The Department developed new accounting codes to separately account for Recovery
Act funds within its existing general ledger system. As required by OMB’s Initial
Guidance dated February 18, 2009, the Department has established new Treasury
Appropriation Fund Symbols (TAFSs) for Recovery Act funds except for the $400 million
provided for State Unemployment Insurance and Employment Service Operations,
which OMB considers to be exempt from this requirement.

The Department also established a separate Internal Account Code for each TAFS to
identify the source of Recovery Act funds. Within its general ledger system, the
Department of Labor Accounting and Related Systems (DOLAR$), the Department
established unique 22-digit accounting codes to identify financial transactions
associated with the Recovery Act.

OMB guidance requires separate tracking and accounting for staff hours spent by
Department employees on Recovery Act activities. The Department developed a plan to
modify its automated timekeeping system to track Recovery Act staff hours beginning
March 25, 2009. In response to OIG’s concern that some agencies did not plan to
account for staff time until the modification to the Department’s automated system was
completed, the Department issued a memorandum requiring agencies to manually
account for Recovery Act time charges. The modification was to be completed by
June 30, 2009. However, completion was delayed until August 10, 2009. The Office of
the Chief Financial Officer (OCFO) stated the implementation was delayed due to the
necessity to conduct discussions with labor unions representing Department
employees. The Department is currently using the new timekeeping system to
separately track ARRA hours.


1
 The amounts were obtained from the Act dated February 17, 2009, and estimates for Extension of the Emergency
Unemployment Compensation, 2008 (EUC08) and Federal Additional Unemployment Compensation (FAUC)
programs from the Department’s Recovery Act Plans published on www.dol.gov/recovery as of April 23, 2009.
                                                                           Recovery Act Financial Reporting
                                                      4                       Report No. 18-09-001-13-001
                                    U. S. Department of Labor – Office of Inspector General



Actual and Planned Obligations

Another objective of the Recovery Act was to expend the funds as quickly as possible.
The Recovery Act stated in Section 3 (b), General Principles Concerning Use of
Funds.—

      The President and the heads of Federal departments and agencies shall
      manage and expend the funds made available in this Act so as to achieve
      the purposes specified in subsection (a), including commencing
      expenditures and activities as quickly as possible consistent with prudent
      management.

According to the Department’s Weekly Report for the week ending June 12, 2009, the
Department has made available to states and other recipients $19.8 billion, or 44
percent of the $44.9 billion provided by the Act. Of the $25.1 billion not yet made
available, about $18 billion involved funds provided to pay for extended
unemployment benefits and the $25 increase in the weekly unemployment benefit
amount.

The Recovery Act also provided the Department with $7 billion to support UI
modernization efforts. As of June 12, 2009, approximately $5.7 billion of these funds
have not been made available, primarily because some states’ modernization efforts will
first require changes in their UI laws.

Finally, approximately $1.4 billion of recovery funds appropriated for training and
employment services, Health Insurance Coverage National Emergency Grants, Job
Corps, and Departmental salaries and expenses also remained unobligated as of
June 12, 2009. The Department plans to use the majority of these funds by
March 31, 2010. See Exhibit 2 for a summary of the Department’s Recovery Act
spending and quarterly plans to obligate remaining funds.

Objective 2 — Does the Department have processes to report on the use of
Recovery Act funds in accordance with OMB guidance?

OMB established new reporting requirements for Federal agencies and other recipients
of Recovery Act funds. On a weekly basis, Federal agencies must provide financial data
to the Recovery.gov website on funds made available and expended. Agencies were
required to start submitting these reports beginning March 3, 2009, with reporting on
expenditures optional until April 6, 2009. The Department has implemented procedures
to prepare the reports required by OMB, and has met all reporting deadlines. However,
the Department recently restated outlays by $8.9 billion on its Weekly Financial and
Activity Report. The restatement underscores the importance for accurate Recovery Act
funds reporting.

OMB has established two new reporting requirements for Federal agencies. OMB
requires Federal agencies to post Weekly Reports on the Recovery.gov website that
                                                            Recovery Act Financial Reporting
                                           5                   Report No. 18-09-001-13-001
                                               U. S. Department of Labor – Office of Inspector General


detail its total obligations and outlays of Recovery Act funds2. OMB also requires
Federal agencies to report the amount of funds publicly announced as being available
on the Funding Notification Report.3

The Department has established procedures to prepare and submit the required
reports. Agencies submit the data for the Weekly Report to the OCFO. The OCFO
reconciles the data against DOLAR$ to ensure accuracy. The report includes
obligations and gross outlays, representing cumulative, year-to-date recovery activity by
TAFS. Obligations and total gross outlays are reconciled against a special report
generated from DOLAR$ that summarizes the totals recorded in DOLAR$ for each
TAFS. OCFO then forwards the Weekly Report to the Office of Public Affairs for
submission to Recovery.gov.

Agencies prepare and send Funding Notification Reports to the Office of the Assistant
Secretary for Administration and Management (OASAM) as recovery funds become
available. The individual reports are compiled into a single Department report which is
sent directly to OMB.

OMB required Federal agencies to submit reports beginning March 3, 2009, with the
expenditure (outlays) data optional until April 6, 2009. The Department met the reporting
deadlines. It began submitting Weekly Reports on February 27, 2009, and began
reporting expenditure data on March 27, 2009.

OMB’s Initial Implementing Guidance dated February 18, 2009, stated:

        Starting on Tuesday March 3, and on each Tuesday thereafter through May 12,
        all agencies receiving Recovery Act funds will submit the following information to
        OMB for cumulative recovery activity through the preceding Friday. All amounts
        are cumulative, year-to-date. …by Treasury Account, total appropriations, total
        obligations, and total expenditures as recorded in agency financial systems
        (emphasis added)…

For the week ending May 1, 2009, the Department reported outlays of approximately
$12 billion for all programs, including the extension of the emergency unemployment
compensation. Outlays reported for the extended unemployment compensation
program were based on the amount recorded in the Department’s financial system.
Obligations and outlays were recorded in DOLAR$ when the funds were transferred
from the General Fund to the Receipts Account at the U.S. Department of Treasury.
However, subsequent to the submission of the May 1, 2009, Weekly Report, the
Department decided to report an estimate of state drawdowns of funds that was
consistent with the intent of the Recovery Act and better represents the amount of funds
that have actually entered into the economy. Consequently, a restatement of $8.9 billion
2
  The agencies began using a new report template for the “Weekly Financial and Activity Report” made available by

OMB on April 7, 2009. The “Weekly Financial and Activity Report,” known previously as the “Weekly Report,” 

redefined “Total Expenditures” to “Total Gross Outlays.” Also, OMB Updated Guidance dated April 3, 2009, removed 

the “Total Appropriation” column from the “Weekly Financial and Activity Report.” 

3
  Initially, award of formula block grants were reported on the Formula Block Allocation Report. OMB subsequently

replaced Formula Block Allocation Report with Funding Notification Report which covers all award types. 

                                                                             Recovery Act Financial Reporting
                                                        6                       Report No. 18-09-001-13-001
                                                U. S. Department of Labor – Office of Inspector General


was made to the Weekly Report to reflect the change in the reporting policy. The
Weekly Report dated May 15, 2009, contained the corrected amount of $3.1 billion in
outlays for all programs. The restatement underscores the importance for accurate
Recovery Act funds reporting.

Modification for Recovery Act Awards Reported to USAspending.gov

The Department followed OMB Initial Guidance, section 2.6, which requires Federal
agencies to report Recovery Act award obligations to USAspending.gov. The purpose of
this website is to provide increased transparency to the public by providing information
on how tax dollars are spent. The Department modified its existing reporting procedures
to identify Recovery Act grant and contract awards to USAspending.gov. According to
the Department, the accuracy of the data is ensured by reconciling the information to
obligations reported on the Weekly Financial and Activity Reports and Recovery Act
awards posted on FedBizOpps.

Recipient Reporting Requirements

Section 1512 of the Recovery Act established the following reporting requirements for
recipients of Federal funds:

        Not later than 10 days after the end of each calendar quarter, each recipient that
        received recovery funds from a Federal agency shall submit a report to that
        agency that contains —
               (1) the total amount of recovery funds received from that agency;
               (2) the amount of recovery funds received that were expended or
                   obligated to projects or activities;
               (3) a detailed list of all projects or activities for which recovery funds were
                   expended or obligated; and
               (4) detailed information on any subcontracts or subgrants awarded by the
                   recipient to include the data elements required to comply with the
                   Federal Funding Accountability and Transparency Act of 2006 (Public
                   Law 109–282), allowing aggregate reporting on awards below $25,000
                   or to individuals, as prescribed by the Director of the Office of
                   Management and Budget.

The interim Federal Acquisition Regulation clause 52.204-11 provides relevant
guidance for recipients of contract awards. For recipients of grant awards4, on
June 22, 2009, OMB issued Implementing Guidance for the Reports on Use of Funds
Pursuant to the American Recovery and Reinvestment Act of 2009. The reporting
requirements do not apply to recipients receiving funds through entitlement or tax
programs. The requirements also do not apply to individuals. The first report is due on
October 10, 2009, for the quarter ending September 30, 2009.



4
 Grants from ETA represent 93 percent of the Recovery Act funds provided to recipients, excluding UI benefit
payments.
                                                                               Recovery Act Financial Reporting
                                                         7                        Report No. 18-09-001-13-001
                                     U. S. Department of Labor – Office of Inspector General


As of the end of the audit fieldwork (June 9, 2009), the Department had not issued
guidance on recipient reporting requirements. A draft Training and Employment
Guidance Letter (TEGL) delineated actions ETA grantees must take and lists the
required OMB data elements. However, the draft TEGL did not include guidance on
specific controls the grantees must establish to ensure accurate reporting of the data to
FederalReporting.gov. More importantly, ETA has not yet established procedures to
review data reported by recipients or sub-recipients of recovery funds.

While OMB’s guidance on recipient reporting has only recently been issued (on
June 22, 2009), and the first report is not due until October, 2009, timely establishment
of procedures and issuance of needed guidance is critical as a part of the Department’s
on-going efforts to fully implement the Act.

CONCLUSION

The Recovery Act requires agencies to implement an unprecedented level of
transparency and accountability to ensure U.S. citizens can see where and how their
tax dollars are being spent. Generally, the Department has implemented procedures to
(1) account for Recovery Act financial activity as required by Federal law and OMB
guidance and (2) report on the use of Recovery Act funds in accordance with OMB
guidance. As part of its ongoing efforts to ensure the transparency and accountability of
recovery funds, the Department should address our concerns regarding the
Department’s financial reporting and recipient reporting systems.

The Senior Accountable Official for the American Recovery and Reinvestment Act of
2009 (SRO) agreed with OIG’s assessment of the need to ensure adequate controls are
established for the accounting and reporting of Recovery Act funds. He further stated
that the Office of the Chief Financial Officer has already implemented additional
financial controls, and will ensure that OIG’s concerns about financial and recipient
reporting will be appropriately considered and addressed. After the issuance of OIG’s
draft report, ETA issued Training and Employment Guidance Letter No. 1-09 on
recipient reporting.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                                             Recovery Act Financial Reporting
                                            8                   Report No. 18-09-001-13-001
             U. S. Department of Labor – Office of Inspector General




Exhibits 





                                     Recovery Act Financial Reporting
                    9                   Report No. 18-09-001-13-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                 Recovery Act Financial Reporting
               10                   Report No. 18-09-001-13-001
                                                   U. S. Department of Labor – Office of Inspector General


                                                                                                        Exhibit 1
                                               5
  Recovery Act Funds by Program

                                                            Dollars (000,000’s)
                               Appropriated                  Transfers from                              Percent of
                               from General                  FUTA6 Funded                                Department
       Component/Item              Fund                        Accounts                 Total              Funds
Employment and Training Administration7
UI
Extension of the Emergency    $         23,700                                     $         23,700                 52.8
Unemployment Compensation,
2008 (EUC08) 8
Federal Additional                       8,700                                                  8,700               19.4
Unemployment Compensation
(FAUC) Program 9
Unemployment Insurance                                     7,000                                7,000               15.6
Modernization
State Administration                                         500                                 500                 1.1
Training and Employment Services (TES)
Dislocated Worker Grants       $         1,250                   $                              1,250                2.8
Youth Activity Grants                    1,200                                                  1,200                2.7
High Growth and Emerging                   750                                                    750                1.7
Industry Competitive Grants
Adult Employment and Training              500                                                   500                 1.1
Dislocated Worker National                 200                                                   200                 0.4
Reserve
YouthBuild Activities                        50                                                   50                 0.1
State Unemployment Insurance and Employment Service Operations (SUIESO)
SUIESO                                            $          400 $                               400                 0.9
Community Service Employment for Older Americans (CSEOA)
CSEOA                          $           120                   $                               120                 0.3
National Emergency Grants (NEGs) for Health Insurance Coverage
NEGs for Health Insurance      $           150                   $                               150                 0.3
Coverage
Subtotal ETA                  $                    36,620    $          7,900      $         44,520                 99.3
Departmental Management (DM) 10
Office of Job Corps           $                       250                          $            250                  0.6
Salaries and Expenses                                  80                                        80                  0.2
Subtotal DM                   $                       330                   0      $            330                  0.7
TOTAL                         $                    36,950    $          7,900      $         44,850                100.0



  5
    The information in this chart was provided by the Department. 

  6
    Federal Unemployment Tax Act (FUTA). 

  7
    Up to one percent of funds appropriated for TES, SUIESO, and CSEOA have been set aside for ETA Program 

  Administration.

  8
    Figures are estimates for the entire funding period. For Fiscal Year 2009, $11.5 billion was appropriated. 

  9
    Figures are estimates for the entire funding period. For Fiscal Year 2009, approximately $6.3 billion was 

  appropriated. 

  10
     OIG funds of $6 million have been excluded in order to maintain independence.

                                                                                  Recovery Act Financial Reporting
                                                            11                       Report No. 18-09-001-13-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                 Recovery Act Financial Reporting
               12                   Report No. 18-09-001-13-001
                                                        U. S. Department of Labor – Office of Inspector General


                                                                                                               Exhibit 2
                                  11                                    12
       Actual and Planned              Obligations by Program

                                                   Cumulative Dollars (000,000’s)
                                                Percent       Planned         Planned        Planned       Planned        Planned
                                Obligated      Obligated     Obligation      Obligation     Obligation    Obligation     Obligation
                    Funds         as of        to Funds        as of           as of          as of         as of          as of
Component/Item     Provided     6/12/0913      Provided       9/30/09         12/31/09       3/31/10       6/30/10        9/30/10
UI
EUC08
                   $23,700    $11,516                  49        $11,246        $19,414       $23,886        $24,144        $24,144
FAUC                  8,700     2,870                  33          5,067          7,127         8,348          8,682          8,682
UI
               14
Modernization 7,000             1,335                   19             NA             NA            NA             NA             NA
State
Administration          500       500                 100            500            500           500            500            500
Total UI           $39,900    $16,221                  41        $16,813        $27,041       $32,734        $33,326        $33,326
TES15
Dislocated
Worker                1,250        NA                  NA            1,243          1,243        1,244          1,245           1,245
Youth Activity        1,200        NA                  NA            1,195          1,195        1,196          1,197           1,197
High Growth and
Emerging
Industry                750        NA                  NA               6            319           752            755            758
Adult                   500        NA                  NA             495            496           496            496            496
Dislocated
Worker Nation
Reserve                 200        NA                  NA               60             95          129            164             198
Youth Build              50        NA                  NA               50             51           52             53              54
Total TES             3,950     2,946                  75            3,049          3,399        3,869          3,910           3,948
SUIESO
SUIESO                  400       396                  99             397            398           399            400            400
CSEOA
CSEOA                   120       119                  99             119            119          119             119            119
NEGs for Health Insurance Coverage
NEGs for Health
Insurance
Coverage                150         0                    0             15             26            27              27            37
DM
Job Corps               250        82                  33             198            236           242            247            250
Salaries and
Expenses                 80         2                    3            28             42            54             68             80
Total Non-UI        $4,950     $3,545                   72        $3,806         $4,220        $4,710         $4,771         $4,834
TOTAL              $44,850    $19,766                   44       $20,619        $31,261       $37,444        $38,097        $38,160




       11
          Figures are estimates. 

       12
          The information in this chart was provided by the Department. According to the Department, the figures in this 

       chart are current as of May 2009. 

       13
          The total does not include obligations for Extended Benefits program of $271 million. 

       14
          UI modernization incentive payments to states were not included in the Department’s planned obligations. Award of 

       UI modernization incentive payments to states largely depend on states’ changes to its UI laws. 

       15
          Obligation data as of 6/12/09 was provided in aggregate for Training and Employment Services. Consequently, 

       data for individual programs was not available. 

                                                                                       Recovery Act Financial Reporting
                                                                13                        Report No. 18-09-001-13-001
          U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                  Recovery Act Financial Reporting
                14                   Report No. 18-09-001-13-001
               U. S. Department of Labor – Office of Inspector General




Appendices 





                                       Recovery Act Financial Reporting
                     15                   Report No. 18-09-001-13-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                 Recovery Act Financial Reporting
               16                   Report No. 18-09-001-13-001
                                     U. S. Department of Labor – Office of Inspector General


                                                                              Appendix A
Background

The Recovery Act was signed into law on February 17, 2009. As part of the Act, the
Department was provided an estimated $45 billion to increase employment and training
opportunities, expand unemployment benefits, enforce worker protection laws,
coordinate activities related to the infrastructure and unemployment insurance
investments, and construct, rehabilitate, acquire and operate Job Corps Centers.

The stated purposes of the Recovery Act are to:

   •	 preserve and create jobs and promote economic recovery;
   •	 assist those most impacted by the recession;
   •	 provide investments needed to increase economic efficiency by spurring 

      technological advances in science and health; 

   •	 invest in transportation, environmental protection, and other infrastructure that
      will provide long-term economic benefits; and
   •	 stabilize state and local government budgets, in order to minimize and avoid
      reductions in essential services and counterproductive state and local tax
      increases.

The Recovery Act will require agencies to implement an unprecedented level of
transparency and accountability to ensure the public can see where and how their tax
dollars are being spent. To assist federal agencies with carrying out programs and
activities enacted in the Recovery Act, OMB issued the following implementing
guidance: M-09-10 Initial Implementing Guidance for the American Recovery and
Reinvestment Act of 2009, dated February 18, 2009; M-09-15 Updated Implementing
Guidance for the American Recovery and Reinvestment Act of 2009, dated
April 3, 2009; and M-09-21, Implementing Guidance for the Reports on Use of Funds
Pursuant to the American Recovery and Reinvestment Act of 2009, dated June 22,
2009.




                                                             Recovery Act Financial Reporting
                                            17                  Report No. 18-09-001-13-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                 Recovery Act Financial Reporting
               18                   Report No. 18-09-001-13-001
                                      U. S. Department of Labor – Office of Inspector General


                                                                               Appendix B
Objectives, Scope, Methodology and Criteria


OBJECTIVES

As part of understanding the Department’s transparency and accountability over the
estimated $45 billion in Recovery Act funds, the objectives of this audit were to answer
the following questions:

      1. Has the Department implemented, or does it have plans to implement,
         procedures to account for Recovery Act financial activity as required by
         Federal law and OMB guidance?

      2. Does the Department have processes to report on the use of Recovery Act
         funds in accordance with OMB guidance?

SCOPE

We conducted this audit in accordance with generally accepted government auditing
standards for performance audits. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on the audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on the
audit objective. Fieldwork was conducted at Department Headquarters located in
Washington, D.C.

The audit includes an understanding of the Department’s plan to account for and report
on Recovery Act funds. We audited current Department Recovery Act practices,
policies, and procedures, from February 17, 2009, to June 9, 2009. We audited the
Department for compliance with the Act and OMB guidance, specific to financial
reporting and accounting. We did not test controls or financial activity because it was
not relevant to our audit objectives. We also did not include the $6 million received by
the Office of Inspector General in order to maintain independence.

We also did not determine the Department’s ability to meet the recipients reporting
requirements in Section 1512 of the Recovery Act. OMB guidance on recipient reporting
was issued on June 22, 2009, subsequent to the end of our audit period of
June 9, 2009.

METHODOLOGY

To determine whether the Department complied with the Recovery Act and OMB
guidance on accounting for and reporting on Recovery Act funds, we obtained a general
understanding of the accounting and reporting process by conducting interviews. We



                                                              Recovery Act Financial Reporting
                                            19                   Report No. 18-09-001-13-001
                                               U. S. Department of Labor – Office of Inspector General


interviewed officials from OASAM, OCFO and ETA to understand their controls to track
and report on Recovery Act financial activity.

We also interviewed OASAM, OCFO, ETA, Office of Job Corps, Employment and
Standards Administration, Occupational Safety and Health Administration, Employee
Benefits Security Administration, and Office of the Solicitor to understand their
management, use, and reporting of Recovery Act Departmental Management Funds for
salaries and expenses.

We obtained and reviewed the following OMB implementing guidance to Federal
agencies: M-09-10 Initial Implementing Guidance for the American Recovery and
Reinvestment Act of 2009, dated February 18, 2009, and M-09-15 Updated
Implementing Guidance for the American Recovery and Reinvestment Act of 2009,
dated April 3, 200916. Specifically, we focused on the financial activity guidelines on
tracking and reporting Recovery Act funds.

We also obtained and reviewed Departmental guidance issued to the agency heads,
and agencies’ internal Recovery Act policies and procedures, and guidance to states.
We reviewed the Department’s recovery plans to obtain an understanding of the
agencies’ use of Recovery Act funds.

To determine Recovery Act funds remaining for obligation, we reviewed the actual
obligations reported on the Weekly Report as of June 12, 2009, and compared this to
the schedule of planned obligations and outlays by quarter from September 30, 2009,
through September 30, 2010.

We relied on interviews with agencies and reviewed the Department’s policies and
procedures. We did not test the effectiveness of internal controls because it was not
relevant to our audit objectives.

CRITERIA

We used the following to perform this audit:

    •	 OMB Guidance M-09-10 Initial Implementing Guidance for the American 

       Recovery and Reinvestment Act of 2009, February 18, 2009. 


    •	 OMB Guidance M-09-15 Updated Implementing Guidance for the American
       Recovery and Reinvestment Act of 2009, April 3, 2009.

    •	 The American Recovery and Reinvestment Act, February 17, 2009.



16
   Because OMB guidance M-09-21, Implementing Guidance for the Reports on Use of Funds Pursuant to the
American Recovery and Reinvestment Act of 2009, dated June 22, 2009, was issued after our audit period, we did
not review the guidelines therein.

                                                                             Recovery Act Financial Reporting
                                                       20                       Report No. 18-09-001-13-001
                                 U. S. Department of Labor – Office of Inspector General


                                                                           Appendix C
Acronyms and Abbreviations

CSEOA           Community Service Employment for Older Americans

Department      Department of Labor

DOLAR$          Department of Labor Accounting and Reporting System

ETA             Employment and Training Administration

EUC08           Extension of the Emergency Unemployment Compensation

FAUC            Federal Additional Unemployment Compensation

FUTA            Federal Unemployment Tax Act

OCFO            Office of the Chief Financial Officer

OMB             Office and Management and Budget

OASAM           Office of the Assistant Secretary for Administration and
                Management

Recovery Act     The American Recovery and Reinvestment Act of 2009

SUIESO          State Unemployment Insurance and Employment Service
                Operations

SRO             Senior Accountable Official for the American Recovery and
                Reinvestment Act of 2009

TEGL            Training and Employment Guidance Letter

TES             Training and Employment Services

TAFS            Treasury Appropriation Fund Symbols

UI              Unemployment Insurance




                                                         Recovery Act Financial Reporting
                                       21                   Report No. 18-09-001-13-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                 Recovery Act Financial Reporting
               22                   Report No. 18-09-001-13-001
                               U. S. Department of Labor – Office of Inspector General


                                                                        Appendix D
Department Response to Draft Report




                                                       Recovery Act Financial Reporting
                                      23                  Report No. 18-09-001-13-001
U. S. Department of Labor – Office of Inspector General




                        Recovery Act Financial Reporting
      24                   Report No. 18-09-001-13-001
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:

Online:	 http://www.oig.dol.gov/       hotlineform.htm
Email:	 hotline@         oig.dol.gov

Telephone:	    1-800-347-3756
               202-693-6999

Fax:           202-693-7020

Address:       Office of Inspector General
               U.S. Department of Labor
               200 Constitution Avenue, N.W.
 Room                 S-5506
               Washington, DC 20210
